                                  Office of Inspector General
                                                              June 2013

Business Loans                                loan. He falsely represented to the SBA     tution of $36,635,697.51, and criminal
                                              and the bank that the loan proceeds         forfeiture of $91,449,700. The man’s
                                              were to be used for inventory, working      investment firm was a loan brokerage
Alabama Man Sentenced and Ordered             capital, leasehold improvements, and        company owned and operated by the
to Pay Restitution of $1,380,486              equipment for his company. However,         man and his brother. The firm special-
                                              in the course of 30 days, more than         ized in securing loans for individuals in-
On June 7, 2013, an Alabama man was           $100,000 of the loan proceeds were          terested in purchasing or refinancing
sentenced to 5 years of probation             spent on personal and non-business          small businesses in the Mid-Atlantic ar-
(including 6 months home confinement),        related expenses. The loan defaulted        ea. The owner of the investment firm
and ordered to pay restitution of             and was charged off in the amount of        and others encouraged prospective bor-
$1,380,486.17 and a $100 special assess-      $137,696.97. This is a joint investiga-     rowers to apply for business loans
ment fee. The man was also ordered to         tion with the U.S. Secret Service and the   through SBA’s Section 7(a) program us-
serve 300 hours community service and         Omaha Police Department.                    ing his firm. The investigation revealed
participate in a mental health evaluation.                                                that the man submitted SBA loan appli-
This case was flagged by the OIG’s Early                                                  cations and supporting documentation
Fraud     Detection    Working       Group    Georgia Man Charged with Conspiracy
                                                                                          containing fraudulent personal financial
(EFDWG) for further review because the        On June 20, 2013, the former president      information to loan originators and un-
man’s $1,529,000 business loan had de-        of a Georgia banking company was            derwriters on behalf of his clients, there-
faulted quickly with an outstanding bal-      charged with one count of conspiracy to     by falsely enhancing the creditworthi-
ance of $1,380,486. The loan, made by         commit bank fraud. The indictment           ness of the borrowers and their busi-
the Small Business Loan Source (SBLS),        alleged that the man conspired with         nesses. This is a joint investigation with
was used to fund the sale of the man’s        others to obtain money, funds, credits,     the FBI.
business to a woman. The investigation        assets, securities, and other property
determined that the $260,000 equity           from the company, while carrying on a
injection that the woman was required                                                     Kentucky Man Pleads Guilty to Theft
                                              practice of replacing non-performing
to pay was actually paid by the seller.                                                   and False Statements
                                              loans with new loans to make the bank
Specifically, the buyer and seller sub-       appear financially stronger than it was.    On June 26, 2013, a Kentucky man pled
mitted false bank statements, checks,         One such loan was an SBA-guaranteed         guilty to three counts of theft and one
and certificate of deposit receipts to rep-   loan of $1.5 million. The monetary loss-    count of false statements on a loan ap-
resent that the funds used to pay the         es to the bank and the SBA total ap-        plication. The investigation revealed
equity injection were originally a gift       proximately $2.8 million. This is a joint   that the SBA had appointed the man and
from the buyer’s grandmother.                 investigation with the Federal Deposit      his company to liquidate a portfolio of
                                              Insurance Corporation, Office of the        small business concerns pursuant to the
                                              Special Inspector General for Troubled      Small Business Investment Company
Nebraska Man Sentenced for False              Asset Relief Program (SIGTARP), the         Program. From 2008 to 2010, the man
Statements                                    Federal Bureau of Investigation (FBI),      diverted the proceeds of sales from the
                                              and the Tift County Sheriff’s Office        small business concerns into a fraudu-
On June 19, 2013, a Nebraska man was          (Georgia).                                  lently opened bank account and convert-
sentenced to 10 months in prison,                                                         ed those proceeds for his personal use.
3 years of supervised release, and or-                                                    The diverted funds exceeded $59,000.
dered to pay a fine of $15,000 and resti-     Maryland Man Sentenced to 188
tution of $137,696.97.                        Months in Prison
                                                                                                             ***
On February 21, 2013, he pled guilty to       On June 20, 2013, the owner of a
one count of making false statements to       Maryland investment firm was
the SBA when he applied for a $150,000        sentenced to 188 months in prison,
SBA-guaranteed Community Express              48 months of supervised release, resti-
                                                                                                                Page 2

                    Officers of Massachusetts         partment of Labor OIG, and        ny was an SDVO business.
                    Firm Sentenced                    General Services Administra-      The man was aware that he
                                                      tion (GSA) OIG.                   had documents on his com-
                    On June 27, 2013, the vice-                                         puter that were responsive to
                    president and the president                                         the subpoena and relevant to
                    of a Massachusetts firm were      Recovery Act                      the pending investigation, but
                    each sentenced. The vice-                                           he deleted them nonetheless.
                    president was sentenced to        California Man Pleads Guilty      This case resulted from a re-
                    one year and one day in pris-                                       ferral from the GAO Fraud-
                    on, two years of supervised       On June 3, 2013, a California     Net. This is a joint investiga-
                    release,     restitution     of   man pled guilty to a one          tion with the VA OIG, Army
                    $399,000, and a $100 special      count Information, filed on       CID, and GSA OIG.
                    assessment fee. The vice-         May 13, 2013, charging him
                    president had previously pled     with knowingly falsifying ma-
                    guilty to one count of con-       terial facts in a loan applica-   Four Sentenced in
                    spiracy to commit wire fraud.     tion with the SBA. In March       $31 Million Fraud
                    The president of the firm was     2009, the man applied for a       Investigation
                    sentenced to 6 months of          $50,000        SBA-guaranteed
                    home confinement, 2 years of      small business loan under the     In Virginia, during the month
                    probation, 200 hours commu-       American Recovery and Rein-       of June 2013, four individuals
                    nity service, restitution of      vestment Act of 2009. The         were each sentenced in con-
                    $38,000, and a $100 special       investigation revealed that       nection with fraudulently
                    assessment fee. The presi-        the man knowingly misrepre-       obtaining over $31 million in
                    dent had also previously pled     sented his criminal history in    8(a) and small business set-
                    guilty to one count of con-       his loan application. In addi-    aside contracts.
                    spiracy to commit wire fraud.     tion, despite having earlier
                                                                                        On June 14, 2013, the former
                    The investigation revealed        filed for bankruptcy, he false-
                                                                                        chief financial officer of a
                    that the vice-president, using    ly represented that he had
                                                                                        Virginia-based firm was sen-
                    the     president’s    service-   never been involved in bank-
                                                                                        tenced to 15 months in pris-
                    disabled status, fraudulently     ruptcy proceedings. The man
                                                                                        on, one year of supervised
                    established his firm as a Ser-    defaulted on the loan approx-
                                                                                        release,     forfeiture    of
                    vice-Disabled Veteran-Owned       imately three months after
                                                                                        $115,556, and a special as-
                    (SDVO) business for the sole      receiving it.
                                                                                        sessment fee of $100. He
                    purpose of obtaining set-
                                                                                        had previously pled guilty to
                    aside contracts. In reality,
                    the president’s association       Government                        one count of conspiracy to
Four Sentenced in                                                                       commit major fraud against
                    with the business was in          Contracting                       the government.
$31 Million Fraud   name only. This case resulted
  Investigation     from a referral from the Gov-     Massachusetts Man Pleads          Also on this date, the former
                    ernment Accountability Office     Guilty to Obstruction             vice president of the same
                    (GAO) FraudNet.                                                     firm was sentenced to 27
                                                      On June 11, 2013, a Massa-        months in prison, 24 months
                                                      chusetts man pled guilty to       of supervised release, restitu-
                    On July 19, 2012, the firm and
                                                      one count of obstruction of       tion of $120,378, and a spe-
                    vice-president were both
                                                      an official proceeding. The       cial assessment fee of $100.
                    suspended from Government
                                                      investigation disclosed that      He had previously pled guilty
                    contracting     opportunities.
                                                      he received a subpoena for        to one count of conspiracy to
                    This is a joint investigation
                                                      records relating to his busi-     commit major fraud against
                    with the Department of Vet-
                                                      ness dealings with another        the government.
                    eran’s Affairs (VA) OIG, the
                                                      company and relating to
                    U.S. Army Criminal Investiga-
                                                      claims that the other compa-
                    tions Division (CID), the De-
                                                                                                        Page 3

On June 21, 2013, the former      States, six counts of wire          ments. The investigation re-
owner of the same firm was        fraud, two counts of making         vealed that the man operated
sentenced to 72 months in         and subscribing a false tax         a scheme to fraudulently use
prison, 24 months of super-       return, two counts of aiding        the status of a legitimate ser-
vised release, a $15,000 fine,    and assisting in the prepara-       vice-disabled veteran to ob-
forfeiture of $6,149,730, and     tion of a false tax return, and     tain government contracts set
a $200 special assessment         one count of forfeiture relat-      -aside for SDVO businesses.
fee. He previously pled guilty    ed to schemes to fraudulently       He then created a joint ven-
to one count of major fraud       seek federal contracts under        ture to obtain SDVO set-aside
against the government and        the SBA’s Section 8(a) pro-         contracts. The joint venture
one count of conspiracy to        gram. The indictment alleged        received two contracts total-
commit bribery.                   that the couple impermissibly       ing over $1 million from the
                                  controlled and operated an          VA before the SDVO status of
On June 28, 2013, the former      SBA-certified 8(a) contrac-         the joint venture was chal-
owner of a second Virginia-       tor. The husband purportedly        lenged. In February 2008, the
based firm was sentenced to       arranged for the contractor         SBA ruled that neither the
48 months in prison, 36           to be incorporated by a so-         joint venture nor the man’s
months of supervised release,     cially disadvantaged employ-        company qualified for the
fined $1 million, and ordered     ee of a different firm that he      program. The SBA made this
to forfeit $1,232,000 and pay     owned. The employee sub-            determination primarily be-
a special assessment fee of       mitted a letter to the SBA          cause of the veteran’s lack of
$100. She had previously          stating that he was responsi-       participation in the business.
pled guilty to one count of       ble for the day-to-day man-         Despite this ruling, the man
major fraud against the gov-      agement and long term deci-         continued to operate his
ernment.                          sion making for the contrac-        company as an SDVO busi-
                                  tor when, in fact, he was not.      ness and received three addi-
The investigation disclosed a     The contractor obtained over        tional contracts totaling ap-
scheme in which the two           $50 million in contracts set        proximately $1.7 million. Fur-
firms falsely represented to      aside for 8(a) businesses. On       ther, the man is alleged to
the government the second         June 18, 2013, the employee         have forged the veteran’s
firm’s eligibility for the 8(a)   pled guilty to one count of         signature on contracts, corre-
program. However, the sec-        making a false statement to         spondence, and checks to
ond firm was operated and         the SBA. This is a joint investi-   give the appearance that the
controlled by the first firm.     gation with the DCIS, GSA           veteran ran this business,
This is a joint investigation     OIG, and the U.S. Internal          when, in fact, he did not. This
with the U.S. National Aero-      Revenue Service (IRS) - Crimi-      is a joint investigation with
nautics and Space Administra-     nal Investigation Division          the VA OIG, the Department
tion (NASA) OIG, the Defense      (CID).                              of Agriculture OIG, Army CID,
Criminal Investigative Service                                        and DHS OIG.
(DCIS), and the Department
of Homeland Security (DHS)        Georgia Man Sentenced to                         ***
OIG.                              24 months in Prison

                                  On June 20, 2013, a Georgia
Maryland Couple Indicted          man was sentenced to 24
While Co-Defendant Pleads         months in prison and 24
Guilty                            months of supervised release,
                                  and ordered to pay $181,000
On June 19, 2013, a Maryland
                                  in restitution. The sentencing
man and his wife were each
                                  is the result of his guilty plea
indicted on one count of con-
                                  to one count of false state-
spiracy to defraud the United
                                                                                                                            Page 4


Audit Report 13-16R: Purchase Reviews Allowed $4.6 Million in Improper Payments on 7(a) Recovery Act Loans

On June 14, 2013, the OIG issued Advisory Memorandum 13-16R, Purchase Reviews Allowed $4.6 Million in Improper Pay-
ments on 7(a) Recovery Act Loans. This advisory memorandum presented the results of the first in a series of the OIG’s
On-going audit of purchased 7(a) Recovery Act loans.

The OIG found that six 7(a) Recovery Act loans were not originated and closed in accordance with SBA rules and regulations
including Standard Operating Procedure 50 10 and the Code of Federal Regulations. The deficiencies included loans approved
with questionable eligibility; inadequate assurance of repayment ability; equity injection issues, and insufficient collateral.
As the deficiencies identified in the six loans were not detected during SBA’s purchase reviews, they resulted in inappropriate
or unsupported disbursements of approximately $4.6 million. The OIG recommended that the SBA seek recovery from the six
lenders associated with these loans on the guaranties paid by the SBA.




                                                  Office of Inspector General
                                                      Peggy E. Gustafson
                                                       Inspector General
                                                            ***
                                     To promote integrity, economy, and efficiency, we
                                   encourage you to report suspected instances of fraud,
                                 waste, abuse, or mismanagement in any SBA program to the
                                                      OIG Hotline* at
                                   http://www.sba.gov/office-of-inspector-general/2662

                                       Or call the OIG Hotline toll-free, at (800) 767-0385

                                 *In accordance with Sections 7 and 8L(b)(2)(B) of the Inspector General’s
                                 Act, confidentiality of a complainant’s personally identifying information
                                 is mandatory, absent express consent by the complainant authorizing
                                 the release of such information.




                       We welcome your comments concerning this update or other OIG publications.
                               To obtain copies of these documents please contact us at:

                                                          SBA OIG
                                               409 Third Street SW, 7th Floor
                                                  Washington, DC 20416
                                                   E-mail: oig@sba.gov
                                      Telephone: (202) 205-6586 FAX (202) 205-7382
                                    Many OIG reports can be found on the OIG’s website at
                                      http://www.sba.gov/office-of-inspector-general

   To view recent press releases, click here, or visit our website at http://www.sba.gov/office-of-inspector-general/17611
